NO:
IN THE
SUPREME COURT OF THE UNITED STATES

Carline Cuny

-PETITIONER

VS.
Douglas Mackenzie

PROOF OF SERVICE

1_.

I, __Carline Curry_, do swear or declare that on this date
2021, as required by Supreme Court Rule 291 have served the enclosed a PETITION
FOR REHEARING on each party to the above proceeding or that party’s counsel, and
. On every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Mr. Douglas Mackenzie, 19 Saucito Ave., Montery, California 93940, Solicitor General
of the United States, Elizabeth Prelogor, Room 5616, Department of Justice, 950
Pennsylvania Ave., N.W., Washington, DC 20530-0001,Attorney General Dave Yost,, 30
E. Broad Street; 14 th floor; Columbus, Ohio 43215
Executed on

(Signature)

,20

